         OFFICE OF INSPECTOR GENERAL
                             GENERAL



                                 Catalyst for Improving the Environment


Audit Report




       State of Oregon Clean Water
       State Revolving Fund Program
       Financial Statements
       for the Year Ended June 30, 2005

       Report No. 2006-1-00021

       January 12, 2006
Abbreviations

CWSRF       Clean Water State Revolving Fund
EPA         U.S. Environmental Protection Agency
GASB        Government Accounting Standards Board
ODEQ        Oregon Department of Environmental Quality
OIG         Office of Inspector General
SRF         State Revolving Fund
                         U.S. Environmental Protection Agency                                    2006-1-00021
                                                                                              January 12, 2006
                         Office of Inspector General


                         At a Glance
                                                                      Catalyst for Improving the Environment

Why We Did This Audit              State of Oregon Clean Water State Revolving Fund
We performed this audit to         Program Financial Statements for the Year Ended
determine:                         June 30, 2005
•   Whether the Oregon Clean        What We Found
    Water State Revolving
    Fund Program’s (the
    Program’s) financial           We rendered unqualified opinions on the Oregon Clean Water State Revolving
    statements were fairly         Fund Program financial statements for the year ended June 30, 2005, and
    presented in all material      Oregon’s compliance with applicable laws and regulations. We did not note
    respects;                      any weaknesses in internal control that we consider to be material.
•   To what extent the
    Program’s internal
    controls over financial
    reporting could be relied
    upon; and
•   Whether the Program
    complied with applicable
    laws and regulations.

Background

The requirement for audited
financial statements was
enacted to help ensure that the
Program had management
practices, systems, and
controls in place to provide
reliable information for
managing the Federally
funded program.


For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:

www.epa.gov/oig/reports/2006/
20060112-2006-1-00021.pdf
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460


                                                                                   OFFICE OF
                                                                              INSPECTOR GENERAL




                                        January 12, 2006

MEMORANDUM

SUBJECT:       Auditor’s Report for the State of Oregon
               Clean Water State Revolving Fund Program
               Financial Statements for the Year Ended June 30, 2005
               Report No. 2006-1-00021

FROM:          Michael A. Rickey /s/ Michael A. Rickey
               Director for Assistance Agreement Audits

TO:            Michael Bogert, Regional Administrator
               EPA Region 10
               Seattle, WA

Attached is a copy of the subject audit we sent to the State of Oregon. The audit contains reports
on the financial statements, internal controls, and compliance requirements applicable to the
State of Oregon Clean Water State Revolving Fund Program financial statements for the year
ended June 30, 2005.

We issued an unqualified opinion on the financial statements and on the compliance
requirements applicable to the State of Oregon Clean Water State Revolving Fund program. In
addition, we did not note any matters involving the internal control system and operations that
we consider to be material weaknesses.

Since we did not have any compliance matters or costs questioned, we are closing the audit
report on issuance.

We have no objection to the release of this report to any member of the public upon request.
The report contains no confidential business or proprietary information. If you have any
questions or concerns, please contact Mr. William Dayton at (916) 498-6590 or Ms. Melinda
Burks at (206) 553-6906.


Enclosure
                                      Table of Contents
At a Glance


Independent Auditor’s Report on the State of Oregon
Clean Water State Revolving Fund Program Financial Statements
for the Year Ended June 30, 2005.......................................................................................                       1

            Statement of Net Assets..........................................................................................                 2
            Statement of Revenues, Expenses, and Changes in Net Assets ...........................                                            3
            Statement of Cash Flows ........................................................................................                  4
            Notes to the Financial Statements ..........................................................................                      6


Independent Auditor’s Report on Internal Control Over Financial Reporting
and on Compliance and Other Matters Based on an Audit of Financial
Statements Performed in Accordance with Government Auditing Standards ..............                                                          12


Distribution        .......................................................................................................................   14
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




                Independent Auditor’s Report on the State of Oregon
          Clean Water State Revolving Fund Program Financial Statements
                         for the Year Ended June 30, 2005

We have audited the accompanying financial statements of the State of Oregon Clean Water
State Revolving Fund Program (the Program) as of and for the year ended June 30, 2005. These
financial statements are the responsibility of the Program’s management. Our responsibility is to
express opinions on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

As discussed in Note 1, the financial statements referred to above are intended to present the
financial position, and the changes in financial position and cash flows, where applicable, of the
Program. They do not purport to, and do not, present fairly the financial position of the State of
Oregon as of June 30, 2005, and the changes in its financial position and its cash flows, where
applicable, for the year then ended in conformity with accounting principles generally accepted
in the United States of America.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Program, as of June 30, 2005, and the changes in financial position
and cash flows, where applicable, for the year then ended, in conformity with accounting
principles generally accepted in the United States of America.



Office of Inspector General
November 8, 2005




                                                  1
                                                State of Oregon
                                   Clean Water State Revolving Fund Program
                                           Statement of Net Assets
                                                 June 30, 2005


Assets                                                   SRF          Administration              Total
Current Assets:
        Cash and cash equivalents                  $ 81,882,351        $     5,227,382   $        87,109,733
        Loan interest receivable                      3,343,107                                    3,343,107
        Loans receivable, current                    20,868,862                                   20,868,862
           Total current assets                     106,094,320              5,227,382           111,321,702

Noncurrent Assets:
       Loans receivable, net of current                256,969,663                           256,969,663
       Deferred Expenses                                   237,544                               237,544
           Total noncurrent assets                     257,207,207                           257,207,207

Total Assets                                       $ 363,301,527        $ 5,227,382      $ 368,528,909

Liabilities and Net Assets
Current Liabilities:
         Accounts payable                                               $       3,715        $         3,715
         Payroll payable                                                       47,867                 47,867
         Construction costs payable                $        443,371                                  443,371
         Due to other funds                                                      9,243                 9,243
         Bond interest payable                             228,930                                   228,930
         Bonds payable                                     850,000                                   850,000
             Total current liabilities                   1,522,301             60,825              1,583,126

Noncurrent Liabilities:
       Bonds payable, net of current                    15,505,000                                15,505,000
           Total noncurrent liabilities                 15,505,000                                15,505,000

Total liabilities                                       17,027,301             60,825             17,088,126

Net assets:
       Restricted                                      346,274,226           5,166,557           351,440,783

Total liabilities and net assets                  $ 363,301,527            $ 5,227,382   $ 368,528,909




                                                        2
                                          State of Oregon
                           Clean Water State Revolving Fund Program
                   Statement of Revenues, Expenses, and Changes in Net Assets
                                 For the Year Ended June 30, 2005


                                                      SRF       Administration          Total
Operating Revenues:
       Loan interest                         $    9,233,418                      $     9,233,418
       Investment earnings                        1,917,031     $     109,544          2,026,575
       Loan fees                                                    1,068,473          1,068,473
           Total operating revenues              11,150,449         1,178,017         12,328,466

Operating Expenses:
       Bond interest                              1,356,265                            1,356,265
       Other bond costs                              91,619                               91,619
       Salaries and benefits                                         701,025             701,025
       Services and supplies                                         103,424             103,424
       Indirect costs                                                134,597             134,597
            Total operating expenses              1,447,884          939,046           2,386,930

Operating Income                                  9,702,565          238,971           9,941,536

Nonoperating Revenues (Expenses)
      EPA grants received                        16,048,936                           16,048,936
      Transfers in (out)                           (485,483)         485,483                   0
          Total nonoperating
            revenues (expenses)                  15,563,453          485,483          16,048,936


Change in net assets                             25,266,018          724,454          25,990,472

Net assets, beginning of year                 341,540,655           4,442,103        345,982,758

Prior Period Adjustment
      Effect of assumption of general
      obligation bonds since June 30, 2003       (20,532,447)                        (20,532,447)

Net assets, beginning of year, adjusted       321,008,208           4,442,103        325,450,311

Net assets, end of year                      $ 346,274,226      $ 5,166,557      $351,440,783




                                                  3
                                          State of Oregon
                             Clean Water State Revolving Fund Program
                                     Statement of Cash Flows
                                 For the Year Ended June 30, 2005


Cash flows from operating activities:
       Cash received from loan interest repayments                         $     9,066,091
       Cash received from loan principal repayments                             13,171,290
       Cash disbursed to borrowers                                             (40,238,856)
       Cash received from loan fees                                              1,068,473
       Interest payments on match bonds                                         (1,127,335)
       Cash received from Treasury interest credits                              2,026,575
       Cash payments to:
         Vendors                                                                  (108,895)
         Employees                                                                (711,066)
         Indirect cost                                                            (125,394)
           Net cash used by operating activities                               (16,979,117)

Cash flows from noncapital financing activities:
          Net cash provided by noncapital financing activities

Cash flows from capital and related financing activities:
       Funds received from EPA                                                  16,128,447
       Proceeds from sale of bonds                                               5,988,389
       Principal payments on match bonds                                       (10,495,000)
           Net cash provided by capital and related financing activities        11,621,836

Cash flows from investing activities:
          Net cash provided by investing activities

Net decrease in cash                                                            (5,357,281)

Cash and cash equivalents, beginning of year                                   92,467,014

Cash and cash equivalents, end of year                                     $ 87,109,733




                                                    4
                                          State of Oregon
                             Clean Water State Revolving Fund Program
                                     Statement of Cash Flows
                                 For the Year Ended June 30, 2005


Reconciliation of operating income to net cash used by operating activities:

Operating income                                                                      $    9,941,536
Amortization of bond costs                                                                    91,619
Adjustments to reconcile operating income to net cash used by operating activities:
        (Increase) in loan interest receivable                                               (167,327)
        (Increase) in loans receivable                                                    (27,457,748)
        Increase in construction costs payable                                                390,182
        (Decrease) in accounts payable                                                         (5,477)
        (Decrease) in payroll payable                                                         (11,075)
        Increase in amount due to other funds                                                  10,243
        Increase in bond interest payable                                                     228,930

Net cash used by operating activities                                                 $(16,979,117)




                                                    5
                                                State of Oregon
                                   Clean Water State Revolving Fund Program
                                       Notes to the Financial Statements

1.   Organization of the Fund

     The Oregon Clean Water State Revolving Fund (the Fund) was established pursuant to Oregon Revised
     Statutes 468.423 – 468.440. The purpose of the Fund is to provide low interest loans to local
     governments for constructing wastewater treatment facilities, implementing nonpoint source pollution
     management plans, and the design and implementation of estuary management plans. The loan
     repayment period is a maximum of 20 years, and all repayments, including interest and principal, must be
     credited to the State Revolving Fund.

     The Fund is administered by the State of Oregon’s Department of Environmental Quality (ODEQ). The
     SRF program consists of several funds to record loan and related activity and an administrative fund that
     collects loan fees and pays the operating costs of the program, and are collectively referred to as the
     Fund. ODEQ’s primary responsibilities for the Fund include obtaining capitalization grants from EPA,
     soliciting potential interested parties for loans, negotiating loan agreements with local communities,
     reviewing and approving payment requests from loan recipients, monitoring the loan repayments, and
     conducting inspection and engineering reviews to ensure compliance with all applicable laws, regulations,
     and program requirements.

     The ODEQ charges the Fund for staff time spent on SRF activities, and the Fund pays those expenses
     from the Administration fund. The charges include the salaries and benefits of the employees, as well as
     indirect costs allocated to the Fund. The rate of indirect cost is negotiated annually with the EPA.
     Employees charging time to the Fund are covered by the benefits available to Oregon State Employees.
     The Fund is also charged indirect costs through the cost allocation plan for general state expenses.

     The Fund financial statements, footnotes, and required supplemental information are presented for the
     U.S. Environmental Protection Agency. The Fund is included in the Oregon general purpose financial
     statements as a special revenue fund which uses the modified accrual basis of accounting. Due to
     differences in reporting methods, there may be differences between the amounts reported in these
     financial statements and the general purpose financial statements.

2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The financial statements for the Fund are presented as an enterprise fund. As such, the Fund is
     accounted for using the flow of economic resources measurement focus and is maintained on the accrual
     method of accounting. Under the accrual method of accounting, revenues are recognized when earned
     and expenses are recorded at the time the liabilities are incurred. All assets and liabilities associated with
     the operations of the Fund are included on the balance sheet. The State has elected to follow the
     accounting pronouncements of the Governmental Accounting Standards Board (GASB), as well as
     statements issued by the Financial Accounting Standards Board on or before November 30, 1989, unless
     the pronouncements conflict with or contradict GASB pronouncements.

     Cash and Cash Equivalents

     All monies of the Fund are deposited with the Oregon Treasurer’s Office which is responsible for
     maintaining these deposits in accordance with Oregon law. The Fund considers all such deposits to be
     cash. Investment interest earnings on these deposits are received by the Fund on a monthly basis.
     According to State law, the Treasurer is responsible for maintaining the cash balances and investing
     excess cash of the Fund, as further discussed in Note 3. Consequently, management of the Fund does
     not have any control over the investment of the excess cash. The statement of cash flows considers all
     funds deposited with the Treasurer to be cash or cash equivalents, regardless of actual maturities of the
     underlying investments.




                                                           6
                                                State of Oregon
                                   Clean Water State Revolving Fund Program
                                       Notes to the Financial Statements

2.   Summary of Significant Accounting Policies (continued)

     Loans Receivable

     The loans are funded by Federal capitalization grants, State matching funds, general obligation and
     revenue bonds, loan repayments, and fund earnings. The SRF monies are disbursed to borrowers on a
     cost reimbursement basis. When borrowers have incurred qualifying expenses, they request a loan
     disbursement from the Fund, and at that time, a disbursement is made and recorded in the Fund
     accounting records. Interest begins accruing when funds are disbursed to the borrower. After the final
     disbursement, repayment begins with an interest only payment. Full repayment must be received by the
     Fund within 20 years. There is no provision for uncollectible accounts, as all repayments are current, and
     program management believes all loans will be repaid according to the loan terms. There have been no
     loan defaults in the program since its inception.

3.   Cash and Cash Equivalents

     All cash in the Fund is deposited with the State Treasurer who is responsible for maintaining and
     investing the pooled cash balances in accordance with State laws. The Treasurer is required to maintain
     a mix of investments in order to allow funds to be withdrawn at any time to meet normal operating needs.
     The Fund’s share of the investment income is based on the average daily balance for the period and is
     credited to the Fund monthly. Details of the investments can be obtained from the State Treasurer’s
     Office.

     All cash and investments are stated at cost, which approximates fair market value. Investments held by
     the State Treasurer’s Office are not categorized because they are not evidenced by securities that exist in
     physical or book entry form.

                                                                Carrying               Market
                                                                Amount                  Value
         Not subject to categorization:
             Deposited with State Treasurer’s Office          $ 87,109,733        $ 87,109,733

4.   Loans Receivable

     The Fund makes loans to qualified entities at interest rates ranging from zero percent to the market rate.
     Interest rates vary depending on the length of the loan, the type of loan, and program rules. Prior to 1995
     rates were either zero percent or three percent, depending on the length of the repayment period.
     Between 1995 and 2003 the interest rate for facilities planning was one-half the bond rate, and the
     interest rate for design and construction was the greater of two-thirds the bond rate or the bond rate
     minus two percent. In May of 2003, interest rates were modified to be based on loan terms. Rates range
     from 25% of the bond rate for 5 year loans to 65% of the bond rate for 20 year loans. Recipients make
     semiannual or, in some cases, annual payments, generally starting six months after project completion.
     Details of loans receivable as of June 30, 2005 are as follows:

                                                         Loan            Remaining        Outstanding
                                                       Authorized        Commitment         Balance
         Completed projects                         $ 359,077,807     $            0     $ 237,127,067
         Projects in progress                         168,941,268        129,491,762        40,711,458
             Totals                                 $ 528,019,075       $129,491,762       277,838,525
         Less amounts due within one year                                                   20,868,862
         Loans receivable, June 30, 2005                                                 $ 256,969,663

     Loans mature at various intervals through June 1, 2026. The scheduled minimum principal repayments in
     future years are as follows:




                                                          7
                                                State of Oregon
                                   Clean Water State Revolving Fund Program
                                       Notes to the Financial Statements

4.   Loans Receivable (continued)

            Year ending June 30:                               Amount
                           2006                              $ 20,868,862
                           2007                                16,397,183
                           2008                                16,306,544
                           2009                                16,839,853
                           2010                                17,175,556
                           Thereafter                         190,250,527
                           Total                             $277,838,525

     Loans to Major Local Agencies:

     As of June 30, 2005, the Fund has made loans to 14 local governments that totaled $10,000,000 or more,
     and in the aggregate, exceeded $340,000,000. The outstanding balances of these loans represent
     approximately 65 percent of the total loans receivable, as follows:

                                                    Authorized
                     Borrower                      Loan Amount         Outstanding           Status
                    City of Albany                   $ 49,286,394          1,127,562     New/Repay.
                    City of Ashland                    23,920,068        $21,659,513      Repayment
                    City of Brookings                  13,100,000         12,032,716      Repayment
                    City of Corvallis                  21,963,693         18,406,188      Repayment
                    City of Dallas                     14,880,000         12,078,316      Repayment
                    City of Eugene                     25,592,592          2,069,417      Repayment
                    City of Florence                   12,279,155         10,424,646      Repayment
                    City of Gresham                    42,359,498         23,716,463      Repayment
                    City of Newport                    20,228,883         18,626,921      Repayment
                    City of Ontario                    13,971,689          8,278,581      Repayment
                    City of Portland                   33,791,673          6,162,969      Paid/Active
                    City of Prineville                 18,267,286         12,639,663     New/Repay.
                    City of Redmond                    21,138,406          5,383,352     Repay/Active
                    City of Woodburn                   30,349,671         25,689,276      Repayment
                    TOTAL                           $ 341,129,008      $ 178,295,584

5.   Fixed Assets

     The only fixed assets are equipment. During fiscal year 2005 there were no purchases of equipment, and
     the existing CWSRF loan program capital assets have all been fully depreciated.

6.   Bonds Payable

     In July 2003, EPA allowed the SRF to use Fund assets to pay the principal and interest on $23,765,000
     of general obligation bonds that were previously issued by the State to provide the 20 percent state
     matching funds as required by the Clean Water Act. The details of such bonds at June 30, 2005 are as
     follows:

     State Match Bonds:

                                                   Balance              Current          Long-term
     Series 1995B, General Obligation
     Pollution Control Bonds,
     interest of 4.7% to 5.25% due semi-
     annually, principal due annually to
     November 1, 2015.                           $ 3,325,000         $ 230,000         $ 3,095,000



                                                        8
                                               State of Oregon
                                  Clean Water State Revolving Fund Program
                                      Notes to the Financial Statements


6.   Bonds Payable (continued)

     Series 1997A, General Obligation
     Pollution Control Bonds,
     interest of 3.8% to 5.0% due semi-
     annually, principal due annually to
     November 1, 2017.                              6,035,000               335,000        5,700,000

     Series 2000A, General Obligation
     Pollution Control Bonds,
     interest of 4.15% to 5.50% due semi-
     annually, principal due annually to
     August 1, 2020.                                6,995,000               285,000        6,710,000

     Totals                                      $ 16,355,000            $ 850,000        $ 15,505,000

7.   Federal Grants and State Match

     The Fund is capitalized by Capitalization Grants for SRF from the EPA. These grants have been
     awarded annually, beginning in federal fiscal year 1989. The State of Oregon must also contribute an
     amount equal to 20 percent of the federal capitalization amount, as discussed below. As of June 30,
     2005, EPA has awarded capitalization grants in the amount of $263,489,612 to the State of Oregon, of
     which $251,316,671 has been drawn for loans and administrative expenses. The following summarizes
     the capitalization grant awards, amounts drawn on each grant as of the balance sheet date, and balances
     available for loans and administrative costs:

                                        Total Draws                       Total Draws         Grant Funds
                         Grant             As of            2005             as of             Available
                        Amount         June 30, 2004        Draws        June 30, 2005       June 30, 2005
      1989-2002      $ 221,383,526     $ 221,383,526    $         0      $ 221,383,526          $          0
      2003               14,962,068       13,804,698      1,157,370          14,962,068                    0
      2004               14,971,077                 0    14,971,077          14,971,077                    0
      2005               12,172,941                 0             0                   0           12,172,941
      Totals          $ 263,489,612    $ 235,188,224    $16,128,447       $ 251,316,671         $ 12,172,941

     Prior to 1993, Oregon’s matching contribution was provided through appropriation of State general fund
     resources. Beginning in 1993, state matching funds were provided by issuing General Obligation
     Pollution Control Bonds. Between 1993 and 2003, Oregon issued $29,980,000 in state match bonds and
     transferred the proceeds plus interest to the SRF as state match. In July 2003, EPA allowed the SRF to
     assume $23,765,000 of previously issued bonds, and principal and interest payments on those bonds to
     be paid from interest earnings of the SRF. Activity on bonds assumed by the SRF since July 2003 is as
     follows:

                                 Balance        Principal       Principal
                               Transferred        Paid            Paid             Balance
                 Bond Issue    July 1, 2003      2004            2005           June 30, 2005
                   1993A           1,865,000     1,865,000                                  0
                   1994A           3,965,000        280,000         3,685,000               0
                   1995B           3,755,000        210,000           220,000       3,325,000
                   1997A           6,660,000        305,000           320,000       6,035,000
                   2000A           7,520,000        255,000           270,000       6,995,000

                               $ 23,765,000    $ 2,915,000     $ 4,495,000 $ 16,355,000



                                                        9
                                                 State of Oregon
                                    Clean Water State Revolving Fund Program
                                        Notes to the Financial Statements


7.   Federal Grants and State Match (continued)

     Interest paid on bonds transferred to the SRF was approximately $745,000 in 2004 and $897,000 in
     2005.

     Since July 2003, Oregon has issued bonds to provide state match, with all principal and interest on such
     bonds being paid by the SRF. The details of such bonds are as follows:

                                                       Principal     Principal        Balance
                       Bond Issue       Issued        Paid 2004      Paid 2005     June 30, 2005

                         2003C       $ 3,000,000    $ 3,000,000                    $          -
                         2004A         6,000,000                    $ 6,000,000               -

                                     $ 9,000,000    $ 3,000,000     $ 6,000,000    $          -

     The effect on the state matching funds previously contributed by the State is as follows:

                                                                        June 30, 2005
     Oregon State Matching Contribution                                 $ 47,277,572
      Reduce state match for transfers from bond fund                     (26,429,045)
     State Match, Adjusted                                              $ 20,848,527

8.   Loan Fees

     In order to support administration and project management costs, loan fees are assessed on all loans
     originating after 1992. A loan origination fee of 1.5 percent is assessed at the beginning of the repayment
     period, and an annual fee of 0.5 percent is assessed on the outstanding balance. The fees are deposited
     to an account outside the Fund and will be used only for administrative and project management costs.

     In May 2003, the Environmental Quality Commission (EQC) approved changes to the program’s
     administrative rules. One of the approved changes is the elimination of the 1.5% loan processing fee that
     has been charged on all loans. This fee is no longer charged. Also, fees on planning loans will not be
     assessed, in order to encourage Oregon communities to complete more planning.

9.   Contingencies, Related Parties, and Subsequent Events

     Contingencies

     The Fund is exposed to various risks of loss related to torts, thefts of assets, errors or omissions, injuries
     to state employees while performing Fund business, or acts of God. The State maintains insurance for all
     risks of loss which is included in the indirect costs allocated to the Fund.

     In previous years the State of Oregon has been named in suits against CWSRF borrowers, by citizens
     either claiming unlawful sewer rate increases or unlawful debt. These suits have been decided in favor of
     our borrowers and the State of Oregon, and we are unaware of any such contingencies in existence at
     this time.




                                                          10
                                              State of Oregon
                                 Clean Water State Revolving Fund Program
                                     Notes to the Financial Statements


9.   Contingencies, Related Parties, and Subsequent Events (continued)

     Related Parties

     There are no related party transactions with or related amounts receivable from management of the Fund.

     Subsequent Events

     No events occurred subsequent to the balance sheet date that came to our attention which require
     adjustment to, or disclosure in, the financial statements.




                                                       11
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




              Independent Auditor’s Report on Internal Control Over
            Financial Reporting and on Compliance and Other Matters
             Based on an Audit of Financial Statements Performed in
                Accordance with Government Auditing Standards

We have audited the financial statements of the State of Oregon Clean Water State Revolving
Fund Program (the Program) as of and for the year ended June 30, 2005, and have issued our
report thereon dated November 8, 2005. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States.

Internal Control over Financial Reporting

In planning and performing our audit, we considered the Program’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing
our opinion on the financial statements and not to provide an opinion on the internal control
over financial reporting. Our consideration of the internal control over financial reporting
would not necessarily disclose all matters in the internal control that might be material
weaknesses. A material weakness is a reportable condition in which the design or operation of
one or more of the internal control components does not reduce to a relatively low level the
risk that misstatements caused by error or fraud in amounts that would be material in relation
to the financial statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions. We noted no
matters involving the internal control over financial reporting and its operation that we
consider to be material weaknesses.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Program’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. This included
tests of specific program requirements governing allowability for specific activities, allowable
types of assistance, State matching, period of availability of funds and binding commitments,
cash management, program income, and subrecipient monitoring that are applicable to the
Program for the year ended June 30, 2005.



                                             12
The management of the Program is responsible for the Program’s compliance with those
requirements. Our responsibility is to express an opinion on those requirements based on our
audit. An audit includes examining, on a test basis, evidence about the Program’s compliance
with those requirements. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the Program complied, in all material respects, with the specific program
requirements that are applicable to the Program for the year ended June 30, 2005.

This report is intended solely for the information and use of management of the Program and
the U.S. Environmental Protection Agency, and is not intended to be and should not be used by
anyone other than these specified parties.



Office of Inspector General
November 8, 2005




                                             13
                                      Distribution


EPA Region 10

             Regional Administrator
             Director, Water Division
             State Revolving Fund Coordinator
             Audit Followup Coordinator

EPA Headquarters

             Director, Grants Administration Division
             Director, Financial Management Division
             Director, Office of Grants and Debarment
             Agency Followup Coordinator
             State Revolving Fund Audit Manager
             State Revolving Fund Branch, Office of Water

State of Oregon

             Division of Water Quality, Oregon Department of Environmental Quality




                                           14
